£

• T

c~i

FILED
JUL 2 2 2021
IN THE

SUPREME^Col^RT-nc^

SUPREME COURT OF THE UNITED STATES

JOHN JOHNSON, JR.

— PETITIONER

(Your Name)
vs.
THE STATE OF TEXAS

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

THE TEXAS COURT OF CRIMINAL APPEALS
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

John Johnson, Jr.
(Your Name)

Robertson Unit #2272908
12071 FM 3522

(Address)
Abilene. Texas 79601
(City, State, Zip Code)
(325)-548-9035
(Phone Number)

QUESTION(S) PRESENTED
Does Texas Penal Code §21.02 desciminate who is an<d.who is not
protected under the Equal Protection Clause under the Fourteenth
Amendment by allowing factfinders to not unanimously decide on
all elements to commit an offense under the said statute but must
agree on all elements to convict another of any other offense in
Texas ?

-i-

LIST OF PARTIES

[xl All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

RELATED CASES
• John Johnson, Jr. v. State of Texas, No. 11-19-00218-CR,
Eleventh District Court of Appeals for Texas, Judgment entered
February 11th, 2021
• John Johnson, Jr. v. State of Texas, No, PD-0164-21, Texas
Court of Criminal Appeals. Judgment entered May 19th, 2021.

-ii-

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION

A »

•

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

A •

3.-6

STATEMENT OF THE CASE

.2

7-10

REASONS FOR GRANTING THE WRIT

•11-12

CONCLUSION

• •. 13

INDEX TO APPENDICES
APPENDIX A - Decision of State Court of Appeals.
APPENDIX B

Decision of State Trial Court.

APPENDIX C - Decision of State Supreme Court (Texas Court
of Criminal Appeals) Denying Review.
APPENDIX D - Decision of U.S. Supreme Court in Richardson
v. U.S., 119 S.CT. 1707 (1999)
APPENDIX E - Decision of U.S. Supreme Court in Ramos v.
Loiusiana, 140 S.CT. 1390 (2020)
APPENDIX F

-iii-

TABLE OF AUTHORITIES CITED
CASES
IKS. Supreme Courts
Apodaca v. Oregon, 406 U.S. 404 (1972)..,,........
Kamos v. Loiusiana, 140 S.CTv„1390 (April 2020)
Richardson v. U.S., 119 S.CT. 1707 (1999)..........

PAGE NUMBER
12
11-12
11-12

Texas Court of Criminal Appeals (Supreme Court of Texas)
Johnson v. State, 673 S.W.2d 190 (Tex.Crim.App. 1984)........
Robinson v. State, 16 S.W.2d 809 (Tex.Crim.App. 2000)........
Texas Court of Appeals
Fraser v. State, 523 S.W.3d 320 (Tex.App.-Amorillo 2017)..

11

8
9

Stair/; if ard R \ : /
a.

STATUTES AND RULES
28 U.S.C. §1257(a)..............
Tex.C.?.Proc. art. 36.29(a)
Tex.P. Code.§2.01..................
Tex.P. Code §21.02................

::.2
//
3, 11
11
...4,7,8,9,11,12

• • 0

OTHER
AVrticle III, Section 2 of the U.S. Constitution
Amendment VI of the U.S. Constitution... .............
Amendment XIV, Section 1 of the U.S. Constitution*
-iv-

3
3-11
3-11

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
[ ] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is

to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is

to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
Ix] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix
€ to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[X] is unpublished.
The opinion of the Eleventh District Appellate
appears at Appendix _A___to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[X] is unpublished.
IT

court

JURISDICTION

[ ] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was______________________
[ ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date:____________
, and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including______
(date) on
(date)
in Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

tx] For cases from state courts:
The date on which the highest state court decided my case was May 19th, 2021
C
A copy of that decision appears at Appendix
[ ] A timely petition for rehearing was thereafter denied on the following date:
--------------------------------- , and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date) in
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

-2-

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
- • 'V

Article III, Section 2 of the U.S. Constitution: "of the trial of
Crimes, except in Cases of Impeachment, shall be by Jury; and
such trial shall be held in the State where the said crimes
shall have been committed; but when not committed within any
s ;.‘-v.':.State, the trial shall be at such place or places as Congress
;:?t may by Law have directed.
Amendment VI of the U.S. Constitution: "In all criminal prosecu­
tions, the accused shall enjoy the right to a speedy andcb
public trial, by an impartial jury of the State and district
wherein the crime shall have been committed..."
Amendment XIV, Section 1 of the U.S. Constitution: "All persons
born or naturalized in the United States, and subject to the
jurisdiction thereof, are cirizens of the United States and
of the State wherein they reside. No State shall make or enr:
force any law which shall abridge the privileges or immuni­
ties of the United States; nor shall any State dprive a person of life, liberty, or property, without due process of • law; noe deny to any person with its jurisdiction the equal
protection of the laws.
Texas Code of Criminal Procedure, article 36.29(a) - "Not less
than twelve jurors can render and return a verdict in a
felony case. It must be concurred in by each juror and signed
b" :by the foreman. Except as provided in Subsection (b), how­
ever, after the trial of any felony case begins and a juror
dies or, as determined by the judge, becomes disabled from
sitting at any time before the charge of the court is read
to the jury, the remainder of the jury shall have the power
to render the verdict; but when the verdict shall be rendered
by less than the whole number, it shall by signed by every
member of the jury concurring in it."

-3-

Texas Penal Code §21.02, Continuous Sexual Abuse of Young Child
or Children(a) In this section, "child" has the meaning assigned by
Section 22.01(c).
(b); A person commits an offense if:
(1) during a period that is 30 or more days, in duration,
the person commits two or more acts of sexual abuse,
regardless of whether the acts of sexual abuse are
committed against one or more victims; and
(2) at the time of the commission of each of the acts of
sexual abuse, the actor is 17 years of age or older
and the victim is a child younger than 17 years of
age.
(c) For purposes of this section, "acts of sexual abuse"
means any act that is a violation of one or more of the
following penal laws:
(1) aggravating kidnapping under Section 20.04(a)(4), if
the actor committed the offense with the intent to
violate or abuse the victim sexually;
(2) indecency with a child under Section 21.11(a)(1), if
the actor committed the offense in a manner other .
than touching, including touching through clothing,
the breast of a child;
(3) sexual assualt under Sectibn 22.011;
(4) aggravated; sexual assualt under Section 22.021;
(5) burglary under Section 30.02, if the offense is pun­
ishable under Subsection (d) of that section and the
actor committed the offense with the intent to commit
an offense listed in Subsections (1)—(4);
(6) sexual performance by a child under Section 43.25;
(7) trafficking of person under Section 20A.02(a)(7) or
(8); and
(8) compelling prostitution under Section 43.05(a)(2).
(d) I a jury is the trier of fact, members of the jury are
not required-to agree unanimously on which specific acts o'f---§exual abuse were committed by the defendant or the exact
-4-

date when those acts were committed. The jury must agree
unanimously that the defendant, during a period that is
30 or more days in duration, committed two or more acts
of sexual abuse.
(e) A defendant may not be convicted in the same criminal

v

action of an offense listed under Subsection (c) the vic^tim of which is the same victim as a victim of the offense
alleged under Subsection (b) unless the offense listed in
Subsection (e):
(1) is charged in the alternative;
(2) occurred outside the period in which the offense under
Subsection (b) was committed; or
(3) is considered by the trier of fact to be a lesser includded offense alleged under Subsection (b).
(f) A defendant may not be charged with more than one count
under Subsection (b) if all of the specific acts of sex­
ual abuse that are alleged to have been committed against
a single victim.
(g) It is an affirmative defense to prosecution under this
section that the actor:
(1) was not more than five years older than:
(A) the victim of the offense, if the offense is alleged
to have been committed against only one victim; or
(B) the youngest victim of the offense, if the offense
is alleged to have been committed against the victim;
(2) did not use duress, force, or a threat against a vic­
tim at the time of the commission of any of the acts
of sexual abuse alleged as an element of the offense; c.::/
and
(3) at the time of the commission of any of the acts of
sexual abuse alleged as an element of the offense:
(A) was not required under Chapter 62, Code of Criminal
Procedure, to register for life as a sex offender, or
(B) was not a person who under Chapter 62 had a reportable conviction or adjudication for an offense under
-5-

for an offense under this section or an act of sexual
abuse as directed by Subsection (c).
(h) An offense under this Section is a felony of the'first
degree, punishable by imprisonment in the Texas Department
of Criminal Justice for life, or for any term not ,ore than
99 years or less than 25 years.

-6-

STATEMENT OF THE CASE
0
On August 9th, 2018, Petitioner John Johnson, Jr. was idicted
by the Taylor County Grand Jury in cause number 21,463-B (C.R. at
5-6). Count 1 of the indictment alleged that engaged in contin-::
uous sexual assualt of two children under the age of 14 (M.J and
L.J.), and alleging that this conduct occured during a period .
that was thirty or more days in duration from onor-about Sept­
ember 1st, 2007 through on or about April 1st, 2018 (C.R. pg.5).
Count 2 of the indictment alleged that in November of 2015,
Petitioner engaged in sexual intercourse with his [adult] stepduaghter, M.J. (C.R. at 6). Both counts also alleged prior felony
convictions of the Petitioner. (C.R. pgs.5-6)
On June": 17th, 2019, Petitioner pleaded guilty to count 2 of
the indictment (R.R. Vol.2 pg.5). On that same day, Petitioner
was tried before a jury for Count 1 of the indictment in the :
104th District Court of Taylor County, T.x. (R.R.Vol.2Pg.10).
The jury convicted the petitioner of continuous sexual assault
of a child under 14 years of age. (C.R. pg.28). On June 19th,

:

2019, the trial court assessed punishment on both at 35 years
confinement in the Texas Department of Criminal Justice- Insti-r
tutional Division, (C.R.pgs.39,48),(R.R.Vol.5pg.5).
On July 5th, 2019, Appellants pro se Notice of Appeal was :::
filed with the Trial Court. The Appellant timely drew up 3 g::
grounds for an Appeal:
Issue I - The trial courts jury instructions applied
section 21.02(b) with respect to the 30-day "contin­
uous" requirment by permitting the submission of the
two seperate victim offenses when both alleged victrims were not under the age of 14 at the same time.
Issue II - The evidence is insufficient to support a
finding that Appellant engaged in sexual intercourse
with M.J. when she was under 14 years of age.
Issuellll - Apellant trial counsel rendered ineff_____ective_as si stance he failed to object to the erron1-___________
-7-

eous jury charge and in failing to challenge section
22.02(b) as unconstitutional^ vague.
The Petitioner argument for the Third ground on Appeal raised
prima facie to this unconstitutional concern, in accordance to
State precedent, Robinson v. State, 16 S.W.2d 809(Tex.Crim.App.
2000).
Some of the concerns and theories set forth in the 1st ground
(can a person be tried with such charge when one of the two vict­
ims was not even born/alive: during the alleged first offense) are
tied over to the third ground, the real crux of this petition is
the jury instruction, in general, to Texas Penal Code 21.02,
where itis not required for a. jury to be unanimous that any alle­
ged offense occured, only that they be unanimous that any believe
occured are 30 or more days apart.
In the Petitioner's direct appeal, he raised, vaguely, this
unconstitutional discretion towards the jury and his trial coun­
sel failed to object to the court forrallowing such and abuse of
justice to take place. He states in his Apellate brief:
"From the jury charge, it is impossible to determine if the
jury convicted Apellant on any combination of findings be­
tween the constitutionally impermissible (allegations re­
garding I.J.) and the legally insufficient. Additionally,
the prosecution arguedfor such a verdict:
You have to be unanimous that two or more things
happened and that they happened 30 days apart, but
someone can believe, 'I believe all things happened
to M.J.','I believe all things happened to M.J. and
something happened to [l.J.]','l think one thing happ­
ened to t'i;j. ] and one thing happened to M.J., but
I think they were 30 days apart, ' ,'Thats fine,r.and its
continuous.'(R.R.Vol.4pg.121).
Therefore, the verdict in the case at bar being general
in nature, and being incapable of determining upon which
specific finding the jury convicted the Appellant. The
-8-

only proper remedy is that this case be reversed and
remended for "new trial. See Fraser, 523 S.W.3d at 336."
The Eleventh District Court of Appeals in Eastland, Texas on
February 4th, 2021 affirmed the Petitioner's direct appeal on
the basis that, though the trial court could not show the Petit­
ioner did have sexual intercourse with M.J. prior to her turn­
ing 14, which was in the charge to the jury, the Petitioner did
not challenge the other two accusations against M.Jhowever,
those two charges were about specific acts done unto M.J. while
she was under the age of 17 not 14 years as is required under
the continuous statute.
Also, the Texas Court os Appeals ruled that the Penal Code
21.02 is not unconstitutional and affirmed his conviction.
The Petitioner filed for a Petition for Discretionary-Review
and raised several concerns for consideration to review his app­
eal :
Is it not unconstitutional to convict
Ground One
someone when the language in the charging instru­
ment alleges offenses that cannot reasonably be
used to convict that person of a specific crime,:namely Penal Code 21.02(b)?
Ground Two - In belief that ground one is unconsti­
tutional, then was the Petitioner's trial counsel
ineffective for not objecting to the jury instruc­
tion pertaining to the vagueness of penal code ...
21,02(b) as it was applied to this case?
The Petitioner did raise the issue where the State of Texas
decision to allow this unconstitutional practice of convicting
people of continuous sexual abuse under Texas Penal Code §21.02
and it sets an unreasonable precedent that sanctions the convic­
tions of such an offense and will impact the jurisprudence of
State and defendants as a class, and also how the"State does not
require that the jury have to unanimously decide on any alleged
incident of sexual abuse, only that any two, or more, alleged
-9-

incidents happened 30 days or more in durations. (PDR, pg.3)
The Petition was refused on May 19th, 2021. No rehearing was
filed. The Petitioner took his cause to the highest Stae Court ;
and was denied relisf. The Petitioner now takes his complaint to
this Court.

-10-

REASONS FOR GRANTING THE PETITION
The Petitioner believes the State of Texas is sanctioning,
within its jurisdiction, an unconstitutional statute, which dis­
criminates against thoes..charged with Texas Penal Code §21.02
whereas all the other statutes of the Texas Penal Code do require
complete unamity. The Petitioner is addressing this issue because
it is unconstitutional as it violates the Due Process •^and-Equali
Protection Clauses of the Fourteenth Amendment arid the trial by
impartial jury clause of the Sixth Amendment. The Petitioner is
asking this Court to decide as to whether or not this malpractice
is unconstitutional.
The State Apellate ,Courts have recognized federal statutes and
U.S. Supreme: Court precedents addressing such issues as presented
hereinj however, Texas legislature and district courts believe
they are within compliance with federal.standards, that they are
fair and impartial. Yet Texas Penal Code §21.02 is anything but
impartial and fair:to those who are charged with such an offense.
And more and more Texans are being convicted with this offense day
by day.
How can Texas legislators be permitted to uphold such a statute
where a jury is not required to be unanimous in determining any
specific offense to have occured (but must with any other, statute)
just that whichever each juror.'.believes to habe happened to have
occured 30 ormore days apart?
Texas laws do state that all jorors are to be unanimous, as
laid out in Texas Code of Criminal Procedure 36.29(a), as well-as
Texas Penal Code §2.01:
"All persons are preumed innocent and no person may be
convicted of an offense unless each element of the offense is proved beyond a reasonable doubt...."
There are also precedents set forth in Texas upholding such stands
ard ;5 such as Johnson v. State, 673 S.W.2d 190 (Tex.Crim.App. 1984),
as well>as federal precedents, like Ramos v. Louisiana, 140 S.CT.
1390 (2020). and Richardson v. U.S., 119 S.CT. 1707 (1999).
-11-

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,
Z-—

Date:

%2"

v AA-

1 (/ f

-13-

